HHS/OIG-Audit--"Review of Pharmacy Acquisition Costs for Drugs Reimbursed
Under the Medicaid Prescription Drug Program of the North Carolina Department of
Human Resources, (A-06-95-00071)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Pharmacy Acquisition Costs for Drugs Reimbursed Under
the Medicaid Prescription Drug Program of the North Carolina Department of Human
Resources," (A-06-95-00071)
September 4, 1996
Complete
Text of Report is available in PDF format (342 kb). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This review, requested by the Health Care Financing Administration, was made to
develop an estimate of the difference between the actual acquisition costs of drugs
of the dispensing pharmacy and the average wholesale price (AWP) used by States
in helping establish drug reimbursement amounts. Most States reimburse pharmacies
for Medicaid prescriptions using a formula which on average, generally discounts
the AWP by about 10.5 percent. This review was made in 11 States. This final report
discloses results in North Carolina. In North Carolina the overall estimate of
the extent that AWP exceeded pharmacy purchase invoice prices was 16.9 percent
for brand names drugs and 45.2 percent for generic drugs. We believe that the difference
between AWP and pharmacy acquisition costs as determined by our review are significant
enough to warrant consideration by the State in any evaluation of the drug program.
Therefore, we recommended that the State agency consider the results of our review
in determining any future changes to pharmacy reimbursement for Medicaid drugs
in North Carolina. The State concurred and stated that the report will be of great
use in the State agency's next review of the drug program.